TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Taxpayer Payments Were Improperly
                    Transferred to the Excess Collection File



                                            March 2, 2011

                              Reference Number: 2011-30-020




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

  Redaction Legend:

  1 = Tax Return/Return Information
  3(d) = Other Identifying Information of an Individual or Individuals




 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


TAXPAYER PAYMENTS WERE                               Of the 66 cases in the large-dollar sample,
IMPROPERLY TRANSFERRED TO THE                        56 required managerial approval. However, for
EXCESS COLLECTION FILE                               13 (23 percent) of the 56 cases, managerial
                                                     approval was not obtained. The absence of
                                                     managerial approval may indicate that the
Highlights                                           managers are not reviewing the requests.
                                                     TIGTA estimates that 26 taxpayers had credits
                                                     of more than $145 million transferred to the XSF
Final Report issued on March 2, 2011
                                                     with no managerial approval.
Highlights of Reference Number: 2011-30-020          Taxpayers who submit a payment of tax when
to the Internal Revenue Service Commissioner         the IRS is barred from making an assessment
for the Wage and Investment Division.                must be refunded their payment if they make a
                                                     timely claim for refund. However, TIGTA
IMPACT ON TAXPAYERS                                  determined that, in general, this was not
Taxpayer payments that cannot be applied to          occurring. Taxpayers were not adequately
the proper taxpayer account are transferred to       notified because the letter required to be issued
the Excess Collection File (XSF). The Internal       to taxpayers was sent to only 6 of 37 taxpayers.
Revenue Service (IRS) did not always properly        Also, the letter does not provide the taxpayer
document and approve requests for transfers or       with sufficient information about how to claim a
adequately notify taxpayers of their right to have   refund. TIGTA estimates that 224 taxpayers,
payments refunded before it transferred the          involving more than $116 million, were not
payments to the XSF. When this situation             adequately notified of their right to receive a
occurs, there is an increased risk that taxpayers    refund.
will not recover their payments.
                                                     WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT                              TIGTA made several recommendations to the
This audit was initiated to determine whether        Directors, Submission Processing and Accounts
the IRS is properly managing and processing          Management, Wage and Investment Division, to
excess collections. This was a followup review       improve the guidance and forms associated with
to previous TIGTA audits related to the XSF.         the XSF program to ensure more consistent
                                                     processing, approval, and communication with
WHAT TIGTA FOUND                                     taxpayers.
When research is required on a request for           IRS officials agreed with our recommendations
transfer to the XSF, the Excess Collections          and are planning corrective actions. The IRS
File Addition (Form 8758) should be fully            plans to revise the guidance pertaining to
completed to ensure credits are correctly            transfers to the XSF for clarification and
added to the XSF. TIGTA reviewed a                   consistency and revise Form 8758 to include a
statistically valid random sample of                 line for managerial approval. Also, management
86 small-dollar cases with transfers                 plans to request a program change to
between $50,000 and $100,000 and                     systemically issue a letter for payments received
another random sample of 66 large-dollar             after the assessment statute expiration date or
cases in which the transfer to the XSF was           with an amended return. Finally, the IRS plans
more than $1 million. TIGTA determined               to revise the letter to clarify how to claim a
that the documentation was not sufficient in         refund.
135 (96 percent) of 140 requests (12 cases
were not reviewable). TIGTA estimates that
requests were not properly documented for
729 taxpayers with credits totaling more than
$604 million transferred from their accounts
into the XSF.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            March 2, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Taxpayer Payments Were Improperly Transferred
                             to the Excess Collection File (Audit # 201030013)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is properly managing and processing excess collections. The review was conducted as part
 of our Fiscal Year 2010 Annual Audit Plan and addresses the major management challenge of
 Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or Margaret E.
 Begg, Assistant Inspector General for Audit (Compliance and Enforcement Operations), at (202)
 622-8510.
                                           Taxpayer Payments Were Improperly
                                         Transferred to the Excess Collection File




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Transfer Requests to the Excess Collection File Are Not Always
          Prepared Properly.......................................................................................... Page 3
                    Recommendation 1:.......................................................... Page 6

                    Recommendations 2 and 3: ................................................ Page 7

          Taxpayers Were Not Adequately Notified of Their Rights When
          Payments Were Transferred Because of a Barred Assessment .................... Page 7
                    Recommendations 4 and 5: ................................................ Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Outcome Measures............................................................... Page 15
          Appendix V – Example of Completed Excess Collections
          File Addition (Form 8758) ........................................................................... Page 17
          Appendix VI – Management’s Response to the Draft Report ..................... Page 18
          Taxpayer Payments Were Improperly
        Transferred to the Excess Collection File




             Abbreviations

ASED   Assessment Statute Expiration Date
IDRS   Integrated Data Retrieval System
IRM    Internal Revenue Manual
IRS    Internal Revenue Service
RSED   Refund Statute Expiration Date
XSF    Excess Collection File
                                     Taxpayer Payments Were Improperly
                                   Transferred to the Excess Collection File




                                            Background

The Excess Collection File (XSF) is a control file within the Integrated Data Retrieval System1
(IDRS) containing nonrevenue receipts2 and payments that cannot be applied to a taxpayer
account. Payments that eventually go to the XSF are generally caused by one of a limited
number of conditions, such as:
    •   A taxpayer submits a tax payment but does not file a tax return.
    •   A taxpayer files a tax return past the time period to receive a refund.
    •   A taxpayer submits a tax payment in anticipation of a tax adjustment, but the adjustment
        does not occur.
    •   The Internal Revenue Service (IRS) is unable to determine which taxpayer’s account to
        apply a payment.
After a payment is moved to the XSF, it is no longer associated with the taxpayer’s account. As
of January 2010, there was approximately $4.7 billion in the XSF, and more than $1.4 billion
(30 percent) of this amount came from transfers of $50,000 or more.
Most transfers to the XSF originate in the Wage and Investment Division’s Accounts
Management function or the Statute area within the Accounts Management function. When
payments and the associated documents are not received or processed as expected, the Accounts
Management function at each IRS campus3 is responsible for ensuring resolution. If the case is
still not resolved after the Accounts Management function research has been performed and the
payment is more than 1 year old, the payment is transferred to the XSF. The Statute area reviews
statute imminent/expired cases related to the original returns and payments. The Statute area
also reviews amended returns when the amended return reflects an increase in tax and documents
that are rejected for statute imminent or expired periods. Both the Statute area and Accounts
Management function fill out Excess Collections File Addition (Form 8758) requests to transfer
a credit from the taxpayer’s account to the XSF and to support the research conducted by the
requester.



1
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
2
  Nonrevenue receipts are received for items other than taxes (e.g., bulk forms, photocopy fees, court fines, and
installment user fees).
3
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                       Page 1
                                    Taxpayer Payments Were Improperly
                                  Transferred to the Excess Collection File



The Excess Collection function is responsible for ensuring requests for transfers to the XSF are
complete and fully documented. Before adding credits to the XSF, accounting technicians are
required to review Forms 8758 to ensure the completeness of data, prior research, and statute
barred criteria, as well as proof that the credits are available.
The Treasury Inspector General for Tax Administration has reviewed the XSF three previous
times, issuing the most current report4 in Fiscal Year 2005. In response to that report, the IRS
formed the Excess Collection File Task Group. This Task Group concluded that the XSF
process relied almost exclusively on notices and letters with relatively few instances in which
personal contact was made with the taxpayer. A major change resulting from the Task Group
was to require employees to conduct additional research on large dollar ($100,000 or more)
credit balance accounts prior to moving funds to the XSF, including a new requirement to make
telephone contact with the taxpayer.
This review was performed in the Wage and Investment Division’s Headquarters Office in
Atlanta, Georgia, and the Customer Account Services function at the Philadelphia Campus in
Philadelphia, Pennsylvania, during the period February through August 2010. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




4
 Enhancing Internal Controls for the Internal Revenue Service’s Excess Collections File Could Improve Case
Resolution (Reference Number 2005-30-022, dated January 21, 2005).
                                                                                                    Page 2
                                   Taxpayer Payments Were Improperly
                                 Transferred to the Excess Collection File




                                   Results of Review

Transfer Requests to the Excess Collection File Are Not Always
Prepared Properly
To determine whether transfer requests to the XSF were appropriate, we selected a statistically
valid sample of 86 small-dollar cases ($50,000 to $100,000) involving individual taxpayers and
another random sample of 66 large-dollar cases involving individual and business taxpayers in
which the transfer to the XSF was more than $1 million. We reviewed the Forms 8758 and any
supporting documentation pertaining to the sampled cases.
The results of our sampled case reviews showed that Forms 8758 were not always completed in
compliance with established procedures. Specifically, we determined the following:
    •   Transfer requests were not always properly documented.
    •   Transfers of $1 million or more did not always have managerial approval.
    •   Reviews of Forms 8758 by the Excess Collection function were not effective.

Transfer requests were not always properly documented
Internal control standards require that agencies establish control activities that ensure
management’s directives are enforced and carried out.5 The standards require that all
transactions and other significant events be clearly documented and that the documentation be
readily available for examination. All documentation and records should be properly managed
and maintained. Proper documentation provides support for the transfer of taxpayer credits to
the XSF.
When research is required on a credit request for transfer to the XSF, the Internal Revenue
Manual (IRM) requires a Form 8758 to be fully completed.6 Form 8758 must include support for
all command codes7 researched, any Internet research conducted, and any attempted taxpayer
contact including letters sent and telephone calls made, as well as documentation supporting the
availability of the credit. See Appendix V for an example of a properly documented Form 8758.




5
  Standards for Internal Controls in the Federal Government (Reference Number GAO/AIMD-00-21-.3.1, dated
November 1999).
6
  Some cases involve automatic batch transfers to the XSF and research is not required.
7
  Command codes consist of five letters and are used to research taxpayer information on the IDRS.
                                                                                                Page 3
                                        Taxpayer Payments Were Improperly
                                      Transferred to the Excess Collection File



For 148 (97 percent) of the 152 requests for transfer in our 2 samples, the IRS was required to
perform research prior to transferring the credit to the XSF. However, we determined that the
documentation was not sufficient in 135 (96 percent) of 140 requests.8 The 135 cases9 involved
more than $303 million in credits transferred to the XSF and contained the following
documentation errors:
    •    In 129 (92 percent) of the 140 cases, the Form 8758 did not include proper
         documentation that contact with the taxpayer was made (or attempted). Form 8758
         provides space to document any letters sent to the taxpayer. For example, when a credit
         is transferred to the XSF because the IRS is barred from making an assessment10 on a
         payment received from the taxpayer, proper documentation on the Form 8758 should
         show that the taxpayer was sent an Assessment Statute Expiration Date (ASED) Expired
         (Letter 2765C). Letter 2765C advises the taxpayer that the period of time for the IRS to
         make an assessment has passed and that the taxpayer has 2 years from the date of the
         payment to submit a claim to have the payment refunded.
    •    In 38 (27 percent) of the 140 cases, the Form 8758 documented the command codes used
         when researching the credit, but did not include the required printouts of the IDRS
         command codes researched or a summary of the analysis of the IDRS research. For
         every transfer to the XSF, proper documentation attached to the Form 8758 should
         support the availability of the credit on the taxpayers’ accounts. IDRS printouts are also
         required to support the Refund Statute Expiration Date11 (RSED) or ASED, 12 and the
         filing date (statute criteria).
An accurate, complete, and properly documented Form 8758 ensures credits are correctly added
to the XSF. Without proper documentation, management does not have evidence to determine if
the actions taken on the cases were appropriate. Based on our sample results, we estimate that
between January 15, 2006, and January 15, 2010, requests were not properly documented for
729 taxpayers with credits totaling more than $604 million transferred from their accounts into
the XSF.

Transfers of $1 million or more did not always have managerial approval
Beginning January 1, 2007, XSF requests for credit transfers of $100,000 or more require
managerial approval on Forms 8758. This requirement was intended to ensure that the proper

8
  Of the 148 cases requiring research, the Form 8758 was not available for 8 cases in our sample, leaving 140 cases
requiring research that were reviewable.
9
  Thirty eight (38) cases had more than 1 documentation error.
10
   The IRS may not assess additional taxes (i.e., is barred) after a certain period of time has passed (i.e., the statute of
limitations).
11
   The RSED is based on the period of time for which a taxpayer may file a claim to receive a refund for tax
payments that exceed tax liabilities.
12
   The ASED is based on the period of time for which the IRS may assess tax.
                                                                                                               Page 4
                                      Taxpayer Payments Were Improperly
                                    Transferred to the Excess Collection File



steps are taken before large-dollar credits are transferred to the XSF. Of the 66 cases in our
large-dollar sample, 56 were requested after January 1, 2007, thereby requiring the requestor to
obtain managerial approval. However, we determined that for 13 (23 percent) of the 56 cases,
managerial approval was not obtained. The 13 cases involved more than $75 million transferred
into the XSF.
During our review, the tax analyst who assisted us in obtaining the Forms 8758 for our sample
cases recognized that transfers into the XSF of credits of $1 million or more did not always have
managerial approval. In April 2010, the tax analyst issued the following notice13 regarding
large-dollar XSF cases:
        Per IRM 3.17.220.2.1.2, large dollar cases of $100,000.00 or more must have
        managerial approval of the originator notated on F8758 prior to the transfer to the
        Excess Collection File. Any F8758 for large dollar cases without managerial approval
        must be rejected back to the originator.
In addition, IRS procedures do not provide a specific method for notating approval, and
Form 8758 does not include a dedicated location (such as a box or line) to notate managerial
approval, which could help remind employees and managers of the need for it. Most of the
43 large-dollar sample cases that did have managerial approval were notated using a manager’s
signature, but the signatures were seldom in the same place on the forms.
The absence of managerial approval on these large-dollar cases may indicate that the managers
are not reviewing the requests before they are submitted to the XSF. Based on our results, we
estimate that between January 1, 2007, and January 15, 2010, 26 taxpayers had credits totaling
more than $145 million14 transferred from their accounts into the XSF with no managerial
approval.

Reviews of Forms 8758 by the Excess Collection function were not effective
To ensure requests for transfers to the XSF are accurate, complete, and properly documented,
XSF accounting technicians are required to review submitted Forms 8758 and all supporting
documentation, when attached. The accounting technicians are required to reject Forms 8758
that are not compliant with the documentation requirements. They are also required to reject any
Form 8758 requesting a transfer of a credit of $100,000 or more when managerial approval is not
notated. If a Form 8758 is rejected, it is sent back to the originator to be corrected. However, in


13
   A Service-wide Electronic Research Program “ALERT” was issued, which disseminates information that may
impact employees Service-wide, but does not require an IRM procedural update.
14
   For our projection in Appendix IV, we calculated the error rate for those cases transferred to the XSF during the
12-month period ending January 15, 2010. We projected the error rate for the 6 (14 percent) of 43 cases transferred
to the XSF during the 12-month period ending January 15, 2010, to the population of 57 transfers during that period,
which resulted in 8 Forms 8758 and approximately $37.3 million in transferred payments. We then projected this
amount over the next 5 years, which totaled 40 Forms 8758 and more than $186 million.
                                                                                                        Page 5
                               Taxpayer Payments Were Improperly
                             Transferred to the Excess Collection File



our sample cases, none of the 135 documentation error cases or 13 cases with no managerial
approval were rejected by Excess Collection function accounting technicians, and the credits
were transferred into the XSF.
Management advised us that these cases are not being rejected because the IRM specific to the
XSF does not require research and, therefore, no documentation is needed. However, the Statute
and Accounts Management functions are the primary originators of Forms 8758 requesting
transfer of taxpayers’ credits to the XSF. The IRM sections pertaining to these two functions do
require research prior to requesting a transfer to the XSF. Specifically:
   •   The IRM sections pertaining to the Statute area require the use of Form 8758 to transfer
       payments and credits due to barred assessments to the XSF. Documentation must be
       attached providing existence of the credit, as well as the research performed prior to
       requesting transfer to the XSF.
   •   The IRM sections pertaining to the Accounts Management function also require the use
       of Form 8758 to transfer payments and credits due to refund statute expirations to the
       XSF. Documentation must be attached proving the existence of a credit, as well as the
       research performed. This information should then be forwarded to the Excess Collection
       function.
However, because the IRM sections pertaining to the XSF specifically state that barred
assessment and refund statute expiration cases do not have to be researched, accounting
technicians are not rejecting Forms 8758 when they are inaccurate, incomplete, or improperly
documented.
Further, these XSF procedures advise employees not to conduct research that could aid in case
resolution. For example, *********************1, 3(d)*****************************
***1, 3(d)********************************************************************.
***************************************************************************
***************************************************************************
****************************************************************************
****************************************************************************
****************************************************************************
****************************************************************************
**************************************************************************
**********.

Recommendations
The Director, Submission Processing, Wage and Investment Division, should:
Recommendation 1: Revise the IRM sections pertaining to the XSF to clarify between the
research required by the originators of Forms 8758 and the research required by the Excess

                                                                                       Page 6
                                  Taxpayer Payments Were Improperly
                                Transferred to the Excess Collection File



Collection function accounting technicians. In addition, the revised IRM sections should clarify
the reasons to reject Forms 8758 (lack of documentation and managerial approval on transfer
requests of $100,000 or more).
       Management’s Response: IRS management agreed with this recommendation and
       will revise the IRM sections to clarify the research required to add payments to the XSF
       and clarify the reasons to reject Forms 8758.
Recommendation 2: Request revisions to Form 8758 to include a dedicated line for
managerial approval (signature) and date for all transfers of $100,000 or more.
       Management’s Response: IRS management agreed with this recommendation and
       will revise Form 8758 to include a dedicated line for the manager’s approval signature
       and date for all transfers of $100,000 or more.
The Director, Accounts Management, Wage and Investment Division, should:
Recommendation 3: Emphasize the research and documentation requirements for transfers
to the XSF and the requirement for managers to review and approve all transfers of $100,000 or
more.
       Management’s Response: IRS management agreed with this recommendation. The
       Accounts Management function will work jointly with the Submission Processing
       function to review the various IRM sections for consistency and will make revisions as
       needed. The Accounts Management and Submission Processing functions will also
       provide training on the IRM revisions, as needed.

Taxpayers Were Not Adequately Notified of Their Rights When
Payments Were Transferred Because of a Barred Assessment
Statutes of limitations help protect taxpayers’ rights by limiting the time in which the IRS can
assess tax, refund credits, and collect taxes. Statute-related issues are complex, and actions taken
against taxpayers regarding the statute of limitations require that adequate notification be given
to the taxpayer.
The RSED includes a 3-year rule and a 2-year rule. The 3-year rule pertains to the time
taxpayers have for certain prepaid tax payments such as estimated tax payments, Federal tax
withheld from wages, and overpayments credited from prior tax years refunded when tax
payments exceed the tax liability reported on the tax return. The amount to be refunded (or
credited) is limited to the tax paid during the 3-year period prior to the filing of the original tax
return, plus the period of any extension of time to file.
The RSED 2-year rule pertains to tax payments made after the tax return due date, which can be
refunded (or credited) as long as the claim for refund is within 2 years of the payment date. If a


                                                                                             Page 7
                                 Taxpayer Payments Were Improperly
                               Transferred to the Excess Collection File



taxpayer makes a payment, with or without a return, the taxpayer has the right to file a claim
within 2 years of that payment for a refund (or credit another tax account).
The ASED is based on the time during which the IRS may assess tax, which is normally 3 years
from the due date of the return or from the date the return is filed, whichever is later. The IRS is
barred from making an assessment when the ASED has passed. If a taxpayer submits a payment
of tax when the IRS is barred from making an assessment, the taxpayer must be refunded the
payment if he or she makes a timely claim for refund (within 2 years of payment). If a taxpayer
files an amended return when the IRS is barred from making an assessment, any amount paid
with that return must be refunded if the taxpayer makes a timely claim for refund.
In 38 (25 percent) of 152 sampled cases, taxpayer payments were transferred to the XSF because
the IRS was barred from assessment at the time the payments were received. **1, 3(d)*******
*****1, 3(d)*******************************************************. Specifically,
   •   29 of the 37 taxpayers submitted more than $53 million in total tax payments in
       anticipation of an adjustment due to an examination.
   •   8 of the 37 taxpayers submitted approximately $664,000 in total tax payments with an
       amended return after the ASED. Because the IRS was barred from assessment, the
       amended returns were not processed.
Our analysis *******************1, 3(d)*****************************************
********1, 3(d)***********************************.
The request to transfer these payments to the XSF originated in the Statute area. The IRM
sections pertaining to the Statute area require payments received after the ASED be transferred
into the XSF. For those payments received with an amended return, the IRM also requires
Letter 2765C be issued to the taxpayer. Letter 2765C advises the taxpayer that the time period
for the IRS to make an assessment has ended and the taxpayer has 2 years to file a claim to have
the payment refunded. However, we determined that a Letter 2765C was sent to only
6 (16 percent) of the 37 taxpayers.
The remaining 31 taxpayers (84 percent) were not adequately notified due to the following
reasons:
   •   The IRM sections pertaining to the Statute area that address subsequent payments made
       in advance of an adjustment, but are received after the ASED, do not include a specific
       requirement to issue a Letter 2765C to the taxpayer.




                                                                                          Page 8
                                      Taxpayer Payments Were Improperly
                                    Transferred to the Excess Collection File



     •   The issuance of Letter 2765C must be done manually, unlike some other taxpayer
         correspondence that is done systemically (e.g., the ASFR Possible Refund Letter
         2469C).15
Further, the six taxpayers who received Letter 2765C were not provided with sufficient
information about how to claim a refund. Letter 2765C advises the taxpayer to file a claim for
refund within 2 years from the date he or she paid the tax. However, the letter does not provide
any information on how to file a claim. The taxpayer may be confused since a claim for refund
is generally made on an income tax return or amended return, but these taxpayers had already
filed their income tax returns. Claim for Refund and Request for Abatement (Form 843) can be
used to file a claim for refund. However, Form 843 is not referred to in Letter 2765C.
Based on the results from the 36 taxpayers in our sample who did not file a claim for a refund,
we estimate that between January 15, 2006, and January 15, 2010, 224 taxpayers were not
adequately notified of their rights to have their payments refunded, involving more than
$116 million16 in credits transferred to the XSF.

Recommendations
The Director, Accounts Management, Wage and Investment Division, should:
Recommendation 4: Request programming changes to systemically issue Letter 2765C when
taxpayers submit payments after the ASED in advance of an examination adjustment or with an
amended return. In the interim, revise the respective IRM sections to instruct the issuance of
Letter 2765C when payments are submitted after the ASED in advance of an examination
adjustment.
         Management’s Response: IRS management agreed with this recommendation and
         will submit a Unified Work Request for programming changes to systemically issue a
         letter when taxpayers submit payments after the ASED, or with an amended return. In
         the interim, the IRS will clarify the existing procedures regarding the issuance of
         Letter 2765C.
Recommendation 5: Request revisions to Letter 2765C to clarify how to file a claim for
refund and include Form 843 when Letter 2765C is sent to the taxpayers.


15
   ASFR – Automated Substitute for Return. Letter 2469C informs the taxpayer a refund may be due if a return is
filed within 3 years of the original due date.
16
   For our projection in Appendix IV, we calculated the error rate for those cases transferred to the XSF during the
12-month period ending January 15, 2010. We projected the error rate for the 16 (27 percent) of 60 cases
transferred to the XSF during the 12-month period ending January 15, 2010, to the population of 265 transfers
during that period, which resulted in 72 taxpayers and approximately $37.5 million in transferred payments. We
then projected this amount over the next 5 years, which totaled 360 taxpayers with transfers more than $187 million.

                                                                                                        Page 9
                        Taxpayer Payments Were Improperly
                      Transferred to the Excess Collection File



Management’s Response: IRS management agreed with this recommendation and
will request a revision to Letter 2765C, clarifying how to file a claim for refund, and
include Form 843 when Letter 2765C is sent to taxpayers.




                                                                              Page 10
                                     Taxpayer Payments Were Improperly
                                   Transferred to the Excess Collection File



                                                                                                Appendix I


         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is properly managing and
processing excess collections. To accomplish this objective, we:
I.      Evaluated IRS policies, procedures, goals, and monitoring of the XSF program.
        A. Reviewed revisions to IRM procedures and other guidance issued.
        A. Assessed the IRS’s corrective actions in response to a prior Treasury Inspector
           General for Tax Administration audit report1 by reviewing Joint Audit Management
           Enterprise System2 documents and management responses to evaluate whether the
           corrective actions were timely and effectively implemented.
        B. Assessed the IRS’s corrective actions in response to the National Taxpayer
           Advocate’s 2006 Annual Report to Congress to evaluate whether the corrective
           actions were effectively implemented.
II.     Obtained a computer extract from the XSF database as of January 15, 2010.
        A. Validated the universe using the IDRS and the XSF inquiry command code and
           verified the accuracy of the computer extracts.
        B. Selected a statistically valid sample of 66 transfers of more than $1 million involving
           individual and business taxpayers, after January 15, 2006, from a population of all
           127 in the excess collection database as of January 15, 2010. We used a statistical
           sample because we wanted to project the number of cases with errors. We used
           attribute sampling to calculate the minimum sample size (n),3 equal to 66.
              n = (Z2 p(1-p))/(A2)                    66
              Z = Confidence Level:                   95 percent (expressed as 1.96 standard deviation)
              p = Expected Rate of Occurrence:        10 percent
              A = Precision Rate:                     ±5 percent



1
  Enhancing Internal Controls for the Internal Revenue Service’s Excess Collections File Could Improve Case
Resolution (Reference Number 2005-30-022, dated January 21, 2005).
2
  The Joint Audit Management Enterprise System is the Department of the Treasury’s automated audit tracking and
management control system.
3                    2          2
  The formula n = (Z p(1-p))/(A ) is from Sawyer’s Internal Auditing – The Practice of Modern Internal Auditing,
4th Edition, pp. 462-464.
                                                                                                    Page 11
                                Taxpayer Payments Were Improperly
                              Transferred to the Excess Collection File



           1. Researched the actions taken for the payments using the IDRS and XSF case files
              to determine if sufficient actions were taken before transfer to the XSF.
           2. Determined whether Internal Revenue Code procedures are used during case
              resolution when the taxpayer is unable or unwilling to submit a tax return.
           3. Determined whether the required transaction code and action code were entered
              into the IDRS to conduct research prior to the transfer to the XSF for the cases in
              our sample for which credits were transferred after December 2006.
           4. Determined whether managerial approval was obtained for all payments more
              than $1,000,000 transferred to the XSF.
       C. Selected a statistically valid sample of 86 individual payments between $50,000 and
          $100,000 from a population of 756 payments transferred to the XSF between
          January 15, 2006, and January 15, 2010. We used a statistical sample because we
          wanted to project the number of cases with errors. We used attribute sampling to
          calculate the minimum sample size (n), equal to 86.
           n = (Z2 p(1-p))/(A2)                86
           Z = Confidence Level:               90 percent (expressed as 1.65 standard deviation)
           p = Expected Rate of Occurrence:    10 percent
           A = Precision Rate:                 ±5 percent
           1. Researched the actions taken for the payments using the IDRS and XSF case files
              to determine if the sufficient actions were taken before transfer to the XSF.
           2. Determined whether Internal Revenue Code procedures are used during case
              resolution when the taxpayer is unable or unwilling to submit a tax return.
           3. Determined whether the required transaction code and action code were entered
              into the IDRS to conduct research prior to the transfer to the XSF for the cases in
              our sample for which credits were transferred after December 2006.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Wage and Investment Division’s
Accounts Management and Submission Processing functions’ policies, procedures, and practices
for transferring credits into the XSF, including documentation requirements and the requirement
to obtain managerial approval on all transfers of $100,000 or more. We evaluated these controls
by selecting a sample from the XSF, analyzing accounts by using the IDRS, and reviewing
applicable Excess Collections File Addition (Form 8758) requests.

                                                                                       Page 12
                              Taxpayer Payments Were Improperly
                            Transferred to the Excess Collection File



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Timothy F. Greiner, Audit Manager
Meaghan S. Tocco, Lead Auditor
Janis Zuika, Senior Auditor
Charles S. Nall, Auditor
Thomas H. Fowler, Information Technology Specialist




                                                                                 Page 13
                             Taxpayer Payments Were Improperly
                           Transferred to the Excess Collection File



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Wage and Investment Division SE:W




                                                                             Page 14
                                Taxpayer Payments Were Improperly
                              Transferred to the Excess Collection File



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 360 taxpayers not adequately notified of their
    right to have tax payments totaling $187.6 million refunded (see page 7).

Methodology Used to Measure the Reported Benefit:
We selected and reviewed 2 statistically valid random samples of XSF transfers involving
86 small-dollar cases (transfers of $50,000 – $100,000) for individual taxpayers and
66 large-dollar cases (transfers more than $1 million) for individual and business taxpayers. The
samples were selected from transfers to the XSF between January 15, 2006, and
January 15, 2010, and based on a confidence level of 90 percent with a ±5 percent precision level
and an expected error rate of 10 percent. Overall, we determined that in 38 (25 percent) of
152 sampled cases, the IRS transferred payments to the XSF when it was barred from making an
assessment. The 38 cases included 37 taxpayers, as 2 payments were from the same taxpayer.
The IRS did not provide adequate notification on claiming a refund to these 37 taxpayers. For
our projection, we calculated the error rate for those cases transferred to the XSF during the
12-month period ending January 15, 2010. We projected the error rate for the
16 (27 percent) of 60 cases transferred to the XSF during the 12-month period ending
January 15, 2010, to the population of 265 transfers during that period, which resulted in
72 taxpayers and approximately $37.5 million in transferred payments. We then projected this
amount over the next 5 years, which totaled 360 taxpayers with transfers over $187 million.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Actual; ****1, 3(d)******************************
    **************1, 3(d)************************.

Methodology Used to Measure the Reported Benefit:
Using the same samples, we identified *********1, 3(d)*******************************
******1, 3(d)*****************************************************************,
*****************************************************************************

                                                                                       Page 15
                                Taxpayer Payments Were Improperly
                              Transferred to the Excess Collection File



********1, 3(d)***************************************************************
************************************************************.

Type and Value of Outcome Measure:
•   Reliability of Information – Potential; 40 Excess Collections File Addition (Form 8758)
    requests for the transfer of $186.9 million to the XSF were accepted with no managerial
    approval (see page 3).

Methodology Used to Measure the Reported Benefit:
Using the same sample of large-dollar cases more than $1 million, we determined that 56 cases
required the requestor to obtain managerial approval. However, for 13 (23 percent) of the
56 cases, managerial approval was not obtained. For our projection, we calculated the error rate
for those cases transferred to the XSF during the 12-month period ending January 15, 2010. We
projected the error rate for the 6 (14 percent) of 43 cases transferred to the XSF during the
12-month period ending January 15, 2010, to the population of 57 transfers during that period,
which resulted in 8 Forms 8758 and approximately $37.3 million in transferred payments. We
projected this amount over the next 5 years, which totaled 40 Forms 8758 and more than
$186 million.




                                                                                      Page 16
                                     Taxpayer Payments Were Improperly
                                   Transferred to the Excess Collection File



                                                                                       Appendix V

           Example of Completed Excess Collections
                  File Addition (Form 8758)




Source: Internal Revenue Service’s 2007 Processing the Excess Collections File guide



                                                                                          Page 17
             Taxpayer Payments Were Improperly
           Transferred to the Excess Collection File



                                                   Appendix VI

Management’s Response to the Draft Report




                                                       Page 18
  Taxpayer Payments Were Improperly
Transferred to the Excess Collection File




                                            Page 19
  Taxpayer Payments Were Improperly
Transferred to the Excess Collection File




                                            Page 20
  Taxpayer Payments Were Improperly
Transferred to the Excess Collection File




                                            Page 21
  Taxpayer Payments Were Improperly
Transferred to the Excess Collection File




                                            Page 22
